No. ______

BLAINE MILAM,
Petitioner
V.
BOBBY LUMPKIN,
DIRECTOR, TEXAS DEPARTMENT OF
CRIMINAL JUSTICE
Respondent
ON PETITION FOR A WRIT OF CERTIORARI TO
THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT

PETITIONER’S APPENDIX
JASON D. HAWKINS
Federal Public Defender
Jeremy Schepers (#304861)*
Supervisor, Capital Habeas Unit
*Counsel of Record
Office of Federal Public Defender
Northern District of Texas
525 S. Griffin Street, Suite 629
Dallas, TX 75202
214-767-2746  214-767-2886 (fax)
Jeremy_Schepers@fd.org

Jennae R. Swiergula
Texas Defender Service
1023 Springdale Rd. #14E
Austin, TX 78721
512-320-8300
512-477-2153 (fax)
jswiergula@texasdefender.org
*Counsel of Record
Attorneys for Petitioner

APPENDIX TABLE OF CONTENTS

Appendix

Document Description

Appendix Page Range

Opinion of the United States Court of
Appeals for the Fifth Circuit
App. 1

App. 2

In re Milam, 832 F. App’x 918 (5th Cir.
Jan. 8, 2021)

Order of Transfer from the United
States District Court for the Eastern
District of Texas, Milam v. Director, No.
6:20-cv-646 (E.D. Tex., Dec. 17, 2020)

i

1–5

1–7

APPENDIX 1

App. 1 001

App. 1 002

App. 1 003

App. 1 004

App. 1 005

APPENDIX 2

Case 6:20-cv-00646-JDK Document 9 Filed 12/17/20 Page 1 of 7 PageID #: 268

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF TEXAS
TYLER DIVISION
§
§
§
§
§
§
§
§
§
§
§

BLAINE KEITH MILAM,
Petitioner,
v.
DIRECTOR, TDCJ-CID,
Respondent.

Case No. 6:20-cv-646-JDK

ORDER OF TRANSFER
Petitioner Blaine Keith Milam is a Texas state prisoner on death row and is
scheduled for execution on January 21, 2021. Before the Court is his second petition
for a writ of habeas corpus pursuant to 28 U.S.C. § 2254, in which Petitioner
challenges his capital murder conviction and death sentence, imposed by the 4th
Judicial District Court of Rusk County, Texas, in State of Texas v. Blaine Keith
Milam, Cause Number CR09-066.
Petitioner initially filed this petition in the Southern District of Texas, Houston
Division, along with a memorandum of law in support of that court’s authority to
review the second or successive petition. Docket Nos. 1, 4. Petitioner argued that the
Southern District of Texas should consider his petition because the criminal case was
tried in Montgomery County, Texas, within that district. However, the judgment of
sentence and execution originated from Rusk County, Texas, within the Eastern
District of Texas. Rejecting Petitioner’s venue argument, the Southern District of

1

App. 2 001

Case 6:20-cv-00646-JDK Document 9 Filed 12/17/20 Page 2 of 7 PageID #: 269

Texas transferred this petition to the Eastern District of Texas on December 16, 2020.
Docket No. 6.
In the present petition, Petitioner argues that he is ineligible to be executed
because he is intellectually disabled.

His claim is based on the United States

Supreme Court’s decision in Atkins v. Virginia, 536 U.S. 304 (2002). He raised an
intellectual disability claim in his first federal habeas petition within the context of
Martinez/Trevino,1 which was considered and denied by this Court on the merits.
Petitioner argues that the Court should now consider the claim on the merits in light
of the Supreme Court’s decision in Moore v. Texas, 137 S. Ct. 1039, 1051–52 (2017),
which rejected several additional factors established by the Texas Court of Criminal
Appeals to assess intellectual disability in Ex parte Briseno, 135 S.W.3d 1 (2004). For
the reasons set forth below, the Court finds that the petition is a second or successive
petition, and that it should be transferred to the Fifth Circuit for consideration under
28 U.S.C. § 2244(b)(3)(A) before this Court may consider it.
I. BACKGROUND
In 2010, Petitioner was convicted of the capital murder of thirteen-month-old
Amora Bain Carson and sentenced to death in Texas state court.2 On direct appeal,
the Texas Court of Criminal Appeals (“CCA”) affirmed Petitioner’s conviction and
sentence on May 23, 2012. Milam v. State, No. AP-76,379, 2012 WL 1868458 (Tex.
Crim. App. May 23, 2012).

1

Martinez v. Ryan, 566 U.S. 1 (2012); Trevino v. Thaler, 569 U.S. 413 (2013).

2

Details of the crime and investigation may be found in Milam v. Director, TDCJ-CID, No. 4:13-cv545, 2017 WL 3537272, at *1–4 (E.D. Tex. Aug. 16, 2017).

2

App. 2 002

Case 6:20-cv-00646-JDK Document 9 Filed 12/17/20 Page 3 of 7 PageID #: 270

On April 1, 2013, Petitioner filed a state habeas petition, which the CCA denied
on September 11, 2013. Ex parte Milam, No. WR-79,322-01, 2013 WL 4856200 (Tex.
Crim. App. Sept. 11, 2013). On October 14, 2014, Petitioner filed his first federal
habeas petition in the Eastern District of Texas. The Court denied habeas relief on
August 16, 2017. Milam v. Director, TDCJ-CID, No. 4:13-cv-545, 2017 WL 3537272
(E.D. Tex. Aug. 16, 2017). The Fifth Circuit denied a Certificate of Appealability on
May 10, 2018. Milam v. Davis, 733 F. App’x 781 (5th Cir. 2018), cert. denied, 139
S. Ct. 335. Neither of these prior habeas petitions included the claim that Milam was
categorically ineligible from execution due to an intellectual disability.
On January 7, 2019, represented by new counsel, Petitioner filed a successive
state habeas petition. A week later, the CCA stayed the execution “[b]ecause of recent
changes in the science pertaining to bite mark comparisons and recent changes in the
law pertaining to the issue of intellectual disability.” Ex parte Milam, No. WR79,322-02, 2019 WL 190209, at *1 (Tex. Crim. App. Jan. 14, 2019). On July 1, 2020,
the CCA again denied habeas relief. Ex parte Milam, No. WR-79,322-02, 2020 WL
3635921 (Tex. Crim. App. July 1, 2020).
On October 2, 2020, Petitioner moved at the Fifth Circuit for leave to file a
successive federal habeas petition raising the claim that he cannot be executed due
to his intellectual disability pursuant to Moore v. Texas, 137 S. Ct. 1039 (2017), or
alternatively, Atkins v. Virginia, 536 U.S. 304 (2002). In re Milam, No. 20-40663 (5th
Cir. Oct. 2, 2020). On October 27, 2020, the Fifth Circuit denied his motion to file a
successive petition. The Fifth Circuit noted that this Court had acknowledged Moore

3

App. 2 003

Case 6:20-cv-00646-JDK Document 9 Filed 12/17/20 Page 4 of 7 PageID #: 271

when denying Petitioner’s first habeas petition, stating that “since the trial court
instructed the jury on the three core elements of the definition of intellectual
disability and none of the additional Briseno factors, the additional requirements
criticized in Moore had no impact on the jury’s decision nor on the State courts’
various decisions.” In re Milam, No. 20-40663, slip op. at 5 (5th Cir. Oct. 27, 2020)
(quoting Milam, 2017 WL 3537272, at *13). The Fifth Circuit found that because a
Moore claim was available to Petitioner during his initial federal habeas application,
Moore did not justify a second habeas application.
Petitioner filed the present petition on December 15, 2020. Petitioner argues
that his intellectual disability claim should be reconsidered in light of Moore.
Petitioner’s execution is scheduled for January 21, 2021.
II. DISCUSSION
The Anti-Terrorism and Effective Death Penalty Act (“AEDPA”) places strict
limitations on inmates filing more than one habeas action:
[n]o circuit or district judge shall be required to entertain an application
for a writ of habeas corpus to inquire into the detention of a person
pursuant to a judgment of a court of the United States if it appears that
the legality of such detention has been determined by a judge or court of
the United States on a prior application for a writ of habeas corpus.
28 U.S.C. § 2244(a). The AEDPA enumerates limited circumstances in which an
inmate may litigate a “second or successive habeas corpus application.” 28 U.S.C.
§ 2244(b)(2). Further, even in those limited circumstances, a habeas petitioner must
“obtain leave from the court of appeals before filing a second habeas petition in the
district court.” Felker v. Turpin, 518 U.S. 651, 664 (1996). “Indeed, the purpose and
intent of [28 U.S.C. § 2244(b)(3)(A)] was to eliminate the need for the district courts
4

App. 2 004

Case 6:20-cv-00646-JDK Document 9 Filed 12/17/20 Page 5 of 7 PageID #: 272

to repeatedly consider challenges to the same conviction unless an appellate panel
first found that those challenges had some merit.” United States v. Key, 205 F.3d 773,
774 (5th Cir. 2000) (citing In re Cain, 137 F.3d 234, 235 (5th Cir. 1998)).
The threshold question of whether this Court has jurisdiction over a successive
federal habeas petition “depends on whether [the] petition is a ‘second or successive’
petition within the meaning of 28 U.S.C. § 2244.” Adams v. Thaler, 679 F.3d 312, 321
(5th Cir. 2012), cert. denied, 566 U.S. 971 (2012). The AEDPA does not define “second
or successive.” Id. Under Fifth Circuit precedent, “a later petition is successive when
it: 1) raises a claim challenging the petitioner’s conviction or sentence that was or
could have been raised in an earlier petition; or 2) otherwise constitutes an abuse of
the writ.” Id. at 322 (citing In re Cain, 137 F.3d at 235). To the extent a habeas
petitioner “brings the same . . . claim[] in his successive habeas petition as he did in
his initial federal habeas petition,” his “petition is barred under 28 U.S.C.
§ 2244(b)(1).” Id. at 323.
In the present case, the Fifth Circuit has already considered and rejected
Petitioner’s intellectual disability claim based on Atkins and Moore—finding that his
intellectually disabled claim could have been raised in his first federal habeas. In re
Milam, No. 20-40663. Petitioner is asking this Court to reconsider the merits of his
intellectual disability claim in light of Moore. His motion therefore constitutes a
successive habeas petition that requires authorization under 28 U.S.C. § 2244(b)(3).
Because the Fifth Circuit has not issued an order authorizing this Court to consider

5

App. 2 005

Case 6:20-cv-00646-JDK Document 9 Filed 12/17/20 Page 6 of 7 PageID #: 273

a successive petition, the Court lacks jurisdiction to consider it. In re Sepulvado, 707
F.3d 550, 556 (5th Cir. 2013), cert. denied, 571 U.S. 952.
The AEDPA vests exclusive authority in the Fifth Circuit to permit the filing
of a successive habeas action. Federal procedure allows a district court to transfer a
successive habeas petition to the circuit court for review under 28 U.S.C. § 2244(b)(2).
See In re Epps, 127 F.3d 364, 365 (5th Cir. 1997). A district court may either dismiss
the case for lack of jurisdiction or transfer it to the Fifth Circuit. See In re Hartzog,
444 F. App=x 63, 65 (5th Cir. 2011) (citing Key, 205 F.3d at 774). “Normally transfer
will be in the interest of justice because normally dismissal of an action that could be
brought elsewhere is time consuming and justice-defeating.” Miller v. Hambrick, 905
F.2d 259, 262 (9th Cir. 1990). These concerns are heightened when considering
whether to stay an execution. See, e.g., Ford v. Wainwright, 477 U.S. 399, 411 (1986)
(discussing special concerns arising in capital proceedings leading up to an
execution); Hearn v. Thaler, No. 3:12-cv-2140-D, 2012 WL 2715653 (N.D. Tex. July 9,
2012). The Fifth Circuit has regularly found that successive death penalty petitioners
were appropriately transferred for consideration under § 2244(b)(2). In re Cathey,
857 F.3d 221, 223 (5th Cir. 2017) (affirming transfer of successive petition based on
Atkins after issuance of Moore); Sepulvado, 707 F.3d at 557; Adams, 679 F.3d at 322.
The Court finds that it is in the interest of justice to transfer the motion to the
Fifth Circuit rather than to dismiss. Accordingly, the Court therefore ORDERS that
Petitioner’s successive petition for a writ of habeas corpus is TRANSFERRED to the

6

App. 2 006

Case 6:20-cv-00646-JDK Document 9 Filed 12/17/20 Page 7 of 7 PageID #: 274

United States Court of Appeals for the Fifth Circuit. The Clerk of Court shall transfer
the case forthwith and without delay.
So ORDERED and SIGNED this 17th day of December, 2020.

___________________________________
JEREMY D. KERNODLE
UNITED STATES DISTRICT JUDGE

7

App. 2 007

